No. 20-107

In the Supreme Court of the United States
CEDAR POINT NURSERY and
FOWLER PACKING COMPANY, INC.,

Petitioners,
v.
VICTORIA HASSID, in her official capacity as Chair of the
Agricultural Labor Relations Board; et al.,

Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Mountain
States Legal Foundation as Amicus Curiae in Support of Petitioners contains 5,446
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 1, 2020.
/s/ Cristen Wohlgemuth
Cristen Wohlgemuth
Counsel of Record
David C. McDonald
Mountain States Legal Fdtn.
2596 South Lewis Way
Lakewood, Colorado 80227
(303) 292-2021
cristen@mslegal.org
dmcdonald@mslegal.org

February 19, 2020

Attorneys for Amicus Curiae

